Case: 20-11212

Date Filed: 06/02/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11212-D

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARTIN L. HARRELL,
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Georgia

ORDER:
Martin L. Harrell, a federal prisoner serving a total sentence of 240 months’ imprisonment
for Hobbs Act conspiracy, conspiracy to commit arson and mail fraud, arson, witness tampering,
and misleading statements, moves for a certificate of appealability (“COA”) and leave to proceed
in forma pauperis (“IFP”) in his appeal of the district court’s order denying as untimely his pro se
Rule 60(b)(6), Fed. R. Civ. P., motion for relief from the district court’s judgment denying his 28
U.S.C. § 2255 motion to vacate.
Harrell filed his Rule 60(b)(6) motion on August 23, 2018, stating that the motion was
based on the district court’s failure to consider the claims of prosecutorial misconduct in his
amended § 2255 motion before denying his original § 2255 motion on September 21, 2012. He
subsequently filed motions “to compel the court to act on petitioner’s motion for relief from
judgment,” “for recusal of prosecutors and magistrate judge,” and “for a modified hearing.”

Case: 20-11212

Date Filed: 06/02/2020

Page: 2 of 3

A magistrate judge issued a report and recommendation (“R&R”), recommending that the
district court deny the Rule 60(b)(6) motion as untimely because the six-year period between the
district court’s denial of Harrell’s § 2255 motion and his Rule 60(b)(6) motion was not a reasonable
delay under Rule 60. The magistrate judge noted that Harrell did not provide any justification for
the delay and did not raise any new facts that would require the district court to alter its earlier
denial of his motion to amend. The magistrate judge also recommended that the district court deny
Harrell’s motion for recusal and deny as moot his motion to compel and motion for a modified
hearing. The district court adopted the R&R over Harrell’s objections, denied the Rule 60(b)(6)
motion, and denied the remaining motions as moot. It also denied his motions for a COA and
leave to proceed IFP on appeal.
As background, Harrell timely filed a pro se § 2255 motion on August 11, 2008, raising
one claim that counsel was ineffective at trial and on appeal due to a conflict of interest. On
August 18, 2011, Harrell moved to amend his § 2255 motion to add a claim that the government
had withheld exculpatory evidence. The district court denied the motion to amend as untimely
because it was filed more than one year after Harrell’s judgment became final, Harrell did not
establish any basis for tolling the one-year limitation period, and his proposed amended claims did
not relate back to his original claim of ineffective assistance of counsel.
Harrell filed a second motion to amend his § 2255 motion on March 30, 2012, seeking
leave to amend his

§ 2255 motion to add an exculpatory-evidence claim and an

ineffective-assistance-of-counsel claim.

A magistrate judge recommended denying Harrell’s

second motion to amend because it was untimely and also recommended denying the § 2255
motion.

The district court adopted the magistrate judge’s recommendation over Harrell’s

2

Case: 20-11212

Date Filed: 06/02/2020

Page: 3 of 3

objections. It entered its judgment denying the § 2255 motion on September 24, 2012. The district
court denied him a COA, and so did we.
A COA is required to appeal from the denial of a Rule 60(b) motion arising from a § 2255
proceeding. Jackson v. Crosby, 437 F.3d 1290, 1294 (11th Cir. 2005). To obtain a COA, a movant
must make “a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
r
Relief under Rule 60(b)(6) “is an extraordinary remedy which may be invoked only upon a
showing of exceptional circumstances.” Griffin v. Swim-Tech Corp., 722 F.2d 677, 680 (11th Cir.
1984). Rule 60(b)(6) motions must be filed within a “reasonable time.” Fed. R. Civ. P. 60(c). A
determination of what constitutes a reasonable time generally depends on the circumstances of
each case, and in making the determination, courts should consider “whether the parties have been
prejudiced by the delay and whether a good reason has been presented for failing to take action
sooner.” BUC Int’l Corp. v. Int’l Yacht Council Ltd., 517 F.3d 1271, 1275 (11th Cir. 2008)
(quotation marks omitted) (analyzing the timeliness of a Rule 60(b)(5) motion).
Here, Harrell filed his Rule 60(b)(6) motion almost six years after the district court entered
the judgment denying his § 2255 motion, and he did not present any reason for this delay. Id.
Moreover, Harrell’s Rule 60(b)(6) motion did not present “exceptional circumstances” that would
justify relief from the district court’s earlier judgment, but instead sought to relitigate his earlier
motion to amend his § 2255 motion, which the district court had denied as untimely. Griffin,
722 F.2d at 680. Accordingly, Harrell’s motion for a COA is DENIED because he has not made
the requisite showing, and his IFP motion is DENIED AS MOOT.

/s/ Robin S. Rosenbaum
UNITED STATES CIRCUIT JUDGE

3

Case l:07-cr-00045-HL-TQL Document 727 Filed 02/21/20 Page 2 of 2

The Court further finds no substantial showing of the denial of a
constitutional right. 28 U.S.C. § 2253(c)(2); Slack v. McDaniel. 529 U.S. 473,
483-84 (2000). Therefore, a Certificate of Appealability is denied.
SO ORDERED, this 21st day of February, 2020.

s/ Hugh Lawson
HUGH LAWSON, SENIOR JUDGE
aks

2

i

Case: 20-11212

Date Filed: 09/09/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11212-D

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARTIN L. HARRELL,
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Georgia

Before: ROSENBAUM and JILL PRYOR, Circuit Judges.
BY THE COURT:
Martin L. Harrell has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-l(c)
and 27-2, of this Court’s June 2, 2020, order denying a certificate of appealability and leave to
proceed on appeal in forma pauperis in his appeal from the dismissal of his Fed. R. Civ. P. 60(b)(6)
motion for relief from the judgment denying his 28 U.S.C. § 2255 motion to vacate sentence. Upon
review, Harrell’s motion for reconsideration is DENIED because he has offered no new evidence
or arguments of merit to warrant relief.

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
ALBANY DIVISION
MARTIN L. HARRELL,
Petitioner,

Criminal Case No.
l:07-CR-45-01 (HL)

VS.
UNITED STATES OF AMERICA

28 U.S.C. § 2255 Case No.
1:08-CV-90021 (HL)

Respondent.

ORDER AND RECOMMENDATION
Presently pending are Petitioner’s Motion for Relief from Judgment, Motion to Compel
the Court to Act on Petitioner’s Motion for Relief from Judgment, Motion for Recusal of
Prosecutors and Magistrate Judge, and Motion for Modified Hearing. (Docs. 712, 714, 715).
Motion for Recusal of Prosecutors and Magistrate Judge (Doc. 715)
On April 19, 2019, Petitioner filed a Motion for Recusal of Prosecutors and Magistrate
Judge. (Doc. 715).
Recusal of Prosecutors
In his Motion, Petitioner asks the Court to disallow Assistant United States Attorneys
(AUSA(s)) Leah McEwen and Jim Crane from further participation in this case. Id. An AUSA
. may be disqualified from participating “in a particular investigation or prosecution if such
participation may result in a personal, financial, or political conflict of interest, or appearance
thereof.” 28 U.S.C. § 528. Petitioner asserts that disqualification is warranted because Ms.
McEwen and Mr. Crane obstructed justice through: “perjury, knowing subordination or perjury,
manufacturing false evidence, hiding/lying about exculpatory evidence, and possible other crimes

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 2 of 7

that are out of the ability of the Petitioner who is untrained in the law to comprehend.” Id.
While Petitioner does not assert any facts regarding these allegations in his Motion for
Recusal, more factual details can be found within Plaintiffs Motion for Relief from Judgment.
(See Doc. 712). In his Motion for Relief from Judgment, Petitioner outlines prosecutorial
misconduct based upon the United States Attorney’s Office receiving a file from the Georgia
Bureau of Investigation (“GBI”) that contained exculpatory evidence which was not given to
Petitioner. Id. pp. 6-7. Petitioner further asserts that the information found in the GBI file
demonstrates that the government knowingly solicited perjured testimony during trial. Id. at 8.
The only evidence put forth by Petitioner that relates to these allegations is a GBI face sheet.
(Doc. 712-1, p: 5). This document contains a handwritten notation indicating that the U.S.
Attorney’s Office was in possession of tapes, CD’s, floppy disks, and photographs. Id. This
evidence does hot demonstrate the existence of perjury, the knowing solicitation of perjury,
manufacturing false evidence, or hiding/lying about exculpatory evidence. As such, Petitioner has
not presented any circumstances that warrant the disqualification of Ms. McEwen or Mr. Crane.
See United States v. Hameen, 2018 WL 6571232, at * 2-3 (M.D. Fla. Dec. 13, 2018) (denying a
motion for disqualification when there was no evidence to support the allegations that the AUSAs
solicited perjured testimony or committed discovery violations). Thus, Petitioner’s Motion for
Recusal (Doc. 735) is DENIED to the extent it seeks disqualification of Ms. McEwen and Mr.
Crane.

h

Recusal of Magistrate Judge
In his Motion, Petitioner also seeks the recusal of the undersigned from having any
involvement in this case. (Doc. 715).
In pertinent part, 28 U.S.C. § 455 provides that

2

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 3 of 7

(a) Any justice, judge, or magistrate judge of the United States
shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a
party, or personal knowledge of disputed evidentiary facts
concerning the proceeding . . .
Under subsection (a), the Court is to ask “whether an objective, disinterested lay observer
fully informed of the facts underlying the grounds on which recusal was sought would entertain
significant doubt about the judge's impartiality.” United States v. Patti, 337 F.3d 1317, 1321 (11th
Cir. 2003) (internal quotation marks omitted). “[I]t is well settled that the allegation of bias must
show that the bias is personal as distinguished from judicial in nature.” Bolin v. Story, 225 F.3d
1234, 1239 (11th Cir. 2000) (internal quotation and citation omitted).
Petitioner asserts that recusal is warranted because the undersigned “has relied on the
untrue words written and spoken from Jim Crane and Leah McEwen.” (Doc. 715). As such,
Petitioner has provided no factual basis to justify recusal as he has not pointed to any specific facts
■!

or made any showing that demonstrates bias or prejudice on behalf of the undersigned. Thus,
Petitioner’s Motion for Recusal (Doc. 715) is also DENIED to the extent that it seeks recusal of
U.S. Magistrate Judge Thomas Langstaff.
Motion for Relieffrom Judgment (Doc. 712)
On August 23,2018, Petitioner filed a pro se Motion for Relief from Judgment. (Doc. 712).
In his Motion, Petitioner seeks relief under Federal Rule of Civil Procedure 60(b) from this Court’s
Order denying his § 2255 Motion to Vacate. Id. at 1. Specifically, Petitioner asserts there were
defects in the integrity of the § 2255 proceeding because the Court erroneously denied his motions
to amend as untimely. Id. 20-21.

3
c

:

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 4 of 7

Procedural Background
Petitioner previously filed a pro se Motion to Vacate pursuant to 28 U.S.C. § 2255 on
August 11,2008. (Doc. 465). The Court found that the factual basis of Petitioner’s claims required
development, and thus scheduled an evidentiary hearing and appointed the Federal Defender to
represent Petitioner. (Docs. 469, 470). The evidentiary hearing was held on January 15, 2009.
(Doc. 486). Petitioner subsequently requested a supplemental evidentiary hearing due to a
deficiency in the transcription of the prior hearing. (Doc. 519, 526). The Court granted Petitioner’s
request and scheduled a supplemental hearing. (Doc. 553).
Prior to the supplemental hearing, Petitioner filed a pro se motion to amend his pending §
2255 motion. (Doc. 562). Petitioner sought to add claims regarding the government’s failure to
disclose exculpatory evidence. Id. The Court considered the motion, but it was ultimately denied
as the additional claims were found to be untimely. (Doc. 578). Petitioner subsequently retained
Paul Hamilton as counsel (Doc. 583), who represented Petitioner in the supplemental hearing on
November 1, 2011 (Doc. 584).

i-

After the hearing, the Petitioner filed a motion to substitute attorney as he retained Melvin
Horne as counsel. (Doc. 606). The Court granted the motion. (Doc. 607). Mr. Horne then filed
motions to amend the pending § 2255 motion and strike Petitioner’s previous pro se motion to
amend. (Docs. 609, 610). This second motion to amend, filed by counsel, sought to add the same
claims set forth in Petitioner’s first, pro se motion. (See Doc. 562, 609). The Court denied the
motions as it again found the additional claims were untimely. (Doc. 621).
The undersigned recommended denying Petitioner’s Motion to Vacate, and the
recommendation was adopted by the district judge. (Docs. 622, 655). Petitioner filed a notice of
appeal regarding the denial of his § 2255 motion and petitioned for a certificate of appealability.

4

i:

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 5 of 7

(Docs. 666, 667). The Eleventh Circuit denied his motion for certificate of appealability. (Doc.
673). On August 23, 2018, Petitioner filed the instant Motion for Relief from Judgment. (Doc.
712).
Discussion
Rule 60(b) motions are impermissible successive habeas petitions if the prisoner (1) raises
a new ground for substantive relief, or (2) attacks the habeas court’s previous resolution of a claim
on the merits. Gonzales v. Crosby, 545 U.S. 524, 531-32 (2005). A Rule 60(b) motion is proper
in an instance where a petitioner seeks to attack a habeas ruling that precluded the merits
determination, or attacks a defect in the federal habeas proceeding’s integrity. Id. at 533-36.
Petitioner does not attack the Court’s decision on the merits of his § 2255 petition, but
instead challenges its denial of his motions to amend. (Doc. 712, pp. 20-21). In ruling on
Petitioner’s motions to amend, the Court found the additional claims were untimely. (Docs. 578
621). As a result, the Court did not reach the merits of the additional claims. Thus, Petitioner’s
Motion for Relief from Judgment (Doc. 712) is a Rule 60(b) motion and not a successive § 2255
motion. Santa v. United States, 492 F. App’x 949,951 (11th Cir. 2012) (motion that does not attack
the district court’s merits determination, but rather challenges the court’s failure to reach merits is
a Rule 60(b) motion, not a successive § 2255 motion).
Rule 60(b) of the Federal Rules of Civil Procedure permits the court to relieve a party from
a final judgment, order, or proceeding under certain circumstances. Here, Petitioner asserts that he
is entitled to relief under Rule 60(b)(6), which permits relief from judgment for “any other reason
that justifies relief.” However, Rule 60(c)(1) states that a “motion under Rule 60(b) must be made
within a reasonable time[.]” The Eleventh Circuit has stated that what constitutes a reasonable time
I

depends on the facts of each case, and that courts should consider whether the movant had a good
5

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 6 of 7
!'

reason for the delay in filing his Rule 60(b) motion and whether the non-movant would be
prejudiced. Ramsey v. Walker, 304 F. App’x 827, 828 (11th Cir. 2008).
Here, the Court denied Petitioner’s § 2255 motion on September 21, 2012, and judgment
was entered on September 24, 2012. (Docs. 655, 656). Petitioner appealed the Court’s denial of
his § 2255 motion on November 17, 2012, and the Eleventh Circuit denied his certificate of
appealability on July 25, 2013. (Docs. 666, 673). Nearly six years after the Court denied
Petitioner’s § 2255 petition, and five years after the Eleventh Circuit denied his certificate of
appealability, Petitioner filed the pending Rule 60(b) motion. {See Doc. 712). The Court cannot
find Petitioner’s nearly six-year delay reasonable under Rule 60(b). Petitioner provides no
justification for his delay, and does not raise any new facts that would require the Court to alter its
earlier denial ofhis motions to amend. Ramsey, 304 F. App’x at 827 (Rule 60(b) motion filed six
years after denial of § 2254 petition not reasonable); Jackson v. United States, 2005 WE 8146433,
*1 (S.D. Ga. Sept. 19, 2005) (“Petitioner’s failure to act for more than three years after the
resolution ofhis appeal hardly constitutes action within the ‘reasonable time’ demanded by Rule
60.”). Thus, the undersigned RECOMMENDS that Petitioner’s Motion for Relief from Judgment
(Doc. 712) BE DENIED.
Motion to Compel Court to Act on Petitioner’s Motion for Relieffrom Judgment (Doc. 714),
Motion for Modified Hearing (Doc. 715)
In light of the undersigned’s above recommendation, Petitioner’s Motion to Compel Court
to Act on Petitioner’s Motion for Relief from Judgment (Doc. 714) and Motion for Modified
Hearing (Doc. 715) are DENIED as MOOT.
Conclusion
Accordingly, the undersigned RECOMMENDS that Petitioner’s Motion for Relief from
Judgment (Doc., 712) be DENIED. Additionally, Petitioner’s Motion for Recusal (Doc. 715) is
f

6

Case l:07-cr-00045-HL-TQL Document 716 Filed 05/08/19 Page 7 of 7

DENIED, and Petitioner’s Motion to Compel and Motion for Modified Hearing (Docs. 714, 715)
are DENIED as MOOT.
The undersigned finds no substantial showing of the denial of a constitutional right. 28
U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 483-84 (2000). Therefore, the undersigned
recommends that the Court deny a certificate of appealability in its final Order. If the Petitioner
files an objection to this Recommendation, he may include therein any arguments he wishes to
make regarding a certificate of appealability.
Pursuant to 28 U.S.C. § 636(b)(1), the parties may serve and file written objections to these
recommendations, or seek an extension of time to file objections, WITHIN FOURTEEN (14)
DAYS after being served with a copy thereof. The district judge shall make a de novo
determination as to those portions of the Recommendation to which objection is made; all other
portions of the Recommendation may be reviewed by the district judge for clear error.
The parties are hereby notified that, pursuant to Eleventh Circuit Rule 3-1, “[a] party failing
to object to a magistrate judge’s findings or recommendations contained in a report and
recommendation in accordance with the provisions of 28 U.S.C. § 636(b)(1) waives the right to
challenge on appeal the district court’s order based on unobjected-to factual and legal conclusions
if the party was informed of the time period for objecting and the consequences on appeal for
failing to object. In the absence of a proper objection, however, the court may review on appeal
for plain error if necessary in the interests of justice.”
SO ORDERED and RECOMMENDED, this 8th day of May, 2019.
s/THOMAS Q. LANGSTAFF
UNITED STATES MAGISTRATE JUDGE

7

